               CLOSEOUT MEMORANDUM FOR M-99110050

 On 3 November 1999, an NSF program officer' brought concerns of possible misconduct
 in science to our attention. An ad hoc reviewe? (the complainant) alleged that the PI and
 co-PI (the subjects) for the NSF            plagiarized text fiom the complainant's paper
 (the paper)4 into the proposal, and misrepresented andlor misinterpreted scientific results
 summarized fiom cited publications.

  Our review of the alleged plagiarized text showed that two sentences in the background
  section of the subjects' proposal are essentially identical to two sentences in the
  background section of the paper. We noted that the subjects reference the complainant's
  paper in the proposal, but the reference appears in the paragraphs before and after the
  copied text. We could find no other examples of essentially identical text in the subjects'
' proposal.   We determined that, although this is a deviation fiom accepted practices, it
  does not rise to the level of misconduct in science according to NSF's defmition.

We reviewed the allegation that the subjects' proposal misrepresented and/or
misinterpreted the published conclusions. The complainant admits that, although the
paper does not specifically describe the conclusion that the subjects attribute to him in the
proposal, the subjects, nevertheless, could have reworked his data and arrived at this
conclusion. With respect to other publications allegedly misrepresented in the subjects'
proposal, the complainant concedes that the subjects could have interpreted the
publications differently than he had. We determined that the subjects' reviews of these
publications presented in the proposal represented their interpretations of the
publications' results, which were different from the complainant's. Differences in
interpretations are not issues of misconduct in science.

This inquiry is closed and no fiuther action will be taken.

cc: Integrity, IG




                                Page 1 of 1                                       M 99-50
